                                                 NATIONAL SCIENCE FOlIM3AT!QN
         I
         1   11
         1                                             4201 WILSON BOULEVARD
                                                      ARLINGTON, VIRGINIA 22230




                       OFFICE OF
                   INSPECTOR GENERAL




                  MEMORANDUM

    m
    I
                  DATE:          November 19
                                           J 1996
                                               .-      -.   - .-
                                                                                                                        ~-
    I

    ~I
    I
                  TO:            I96020013

    I
                  FROM:          I
                                 - Special Agent ,
    I
                                        -.                                                                  .-
                  VIA:                         3 Special Agent-in-Ch
I

                  RE:            Resolution of Case


I
I                 O n February 20, 1996, our office received a letter alleging thatj"P.D
                                                                                       r         - - fo
                  University was charging his NSF grants for travel expenses unrelated to his research. Specifically,
                  the complainant alleged that-made        seven trips that were paid for wit-SF        grant funds
                  but were made, in reality, in order to meet the complainant's wife. The complainant also charged
                  that m a d e several long-distance telephone calls to the complainant's wife (which were charged
                  to an NSF grant) and that-roke          into the complainant's computer to determine how much
                  the complainant knew about -elationship          with his (the complainant's) wife.

                  Initially, we requested and reviewe-niversity's           account summaries for two o-
                  NSF awards:                                       We found no unusual telephone or other
                  questionable expenses charged to these grants. We then obtained and analyzed copies of travel
                  source documentation submitted under

                  Our analysis showed that no grant funds were paid directly to the complainant's wife. Of the
                  seven trips alleged to be mischarged, there are no travel voucher submissions for three. Three
                  trips were made by i scientific meetings related to his research. The seventh trip was made
                  to meet with a collaborator who was listed in-roposal      and who co-authored several research
                  articles w i t h In addition, we contacted various organizations who hosted these scientific
                  meetings and verified that d-      not receive any form of payment (honorarium, travel stipend,
                  etc,) from them.
Due to the lack of evidence to support the complainant's allegations of waste, fraud, and/or abuse
of NSF resources, additional investigation is not warranted at this time. This case is closed.
